NO.

IN THE
SUPREME COURT OF THE UNITED STATES

DEREK A. RIVERA-PETITIONER
VS.
CONNIE HORTON, Warden-RESPONDENT
On Petition For Writ of Certiorari to
United States Court of Appeals For The Sixth Circuit

PROOF OF SERVICE
I, Derek A. Rivera do swear or declare that on this date, Apr i 1 / 3
, 2021, as required
by Supreme Court Rule 29 I have served the enclosed Motion for Leave to Proceed In Forma
Pauperis, Affidavit in Support of Motion, Petition for Writ of Certiorari, and Proof Of Service on
each party to the above proceeding or that party’s counsel, and on every other person required to
be served, by depositing an envelope containing the above documents in the United States mail,
first-class postage prepaid, properly addressed to:
Dana Nessel, Attorney General, G. Mennen Williams Building, 7th Floor, 525 West Ottawa,
P.O. Box 30212, Lansing, MI 48909

I declare under penalty of perjury that the foregoing is true and correct.

Date:

AprM l2>

, 2021
Derek A. Rivera

